U.S. GOVERNMENT
PRINTING OFFICE                                                       Robert C. Tapella
KEEPING AMERICA INFORMED                                                     Public Printer




May 29, 2008

The Honorable Robert A. Brady
Chairman
Joint Committee on Printing
1309 Longworth House Office Building
Washington, DC 20515

Dear Mr. Chairman:

In accordance with 44 U.S.C. 3903 and the relevant provisions of the Inspector
General Act of 1978, as amended, I am transmitting to the Congress the
Semiannual Report of the Office of the Inspector General (OIG) for the U.S.
Government Printing Office (GPO), covering the 6 month period of October 1,
2007, through March 31, 2008, along with the following information as required
by law. This letter meets my statutory obligation to provide comments on the
OIG's report and highlights management actions taken on the OIG's
recommendations, which may relate to more than one reporting period.

General Comments

As provided for by law, this section offers my general comments on the OIG's
semiannual report and operations.

I.       Management Challenges. In my view, the organizational and
         technological transformation that GPO began implementing in 2003
         remains critical to the future of GPO. To carry out that transformation
         successfully, the OrG has identified ten challenges facing GPO's
         management that we are various stages of successfully implementing.
         Progress was made in several of the management challenge areas during
         the reporting period, as noted in the OIG report. The report also identifies
         specific areas for improvement, including deficiencies in certain internal
         controls identified in the annual financial audit, a need to address certain
         continuity-of-operations (COOP) issues, and certain wealmesses in the
         implementation of GPO's Federal Digital System (FDsys). Management
         is addressing these issues.

         1. Strategic Planning: GPO's Strategic Performance and Achievements
         (SPA) will be cascaded down to every employee by the early fall of 2008.
         This plan states GPO's goals, objectives, and significant achievements.
         To complement GPO's Strategic Vision and SPA, each business unit is
         developing its own strategic plan that ties directly into the GPO's overall



732 North Capitol Street, NW   Washington, DC 20401    202-512-1100      rtapella@gpo.gov
The Honorable Robert A. Brady - Page 2

      goals, objectives, and scorecard. The ChiefInformation Officer's strategic
      plan will be the first to roll out in 2008.

       2. Management of Human Capital: There have been a number of new
       initiatives that are designed to significantly improve the management of
      human capital for GPO. A new Leadership Development Program (LDR)
      was created to provide a talented and diverse group of new leaders. The
      program participants were recruited from the best and brightest both
      within GPO and across the country. This class has just completed their
      first year of an intensive program that is already providing tangible
      benefits to GPO. In addition, a key plant operations training program was
      completely revamped. The newly re-designed Plant Apprentice Program
      is designed to ensure that graduates are knowledgeable across a wide
      range of craft trades and technologies. In order to improve the efficiency
      and effectiveness ofthe management of Human Capital, there are current
      initiatives to procure and implement a new software program, EmpowHR.
      This Peoples oft product is designed to work with our payroll provider, the
      National Finance Center, and to provide significant improvements in the
      processing of personnel actions. Importantly this program will provide
      management with key personnel related information on an ad hoc basis.
      The availability of this information is critical to the improved management
      of personnel across GPO. In order to reduce paperwork we are currently
      working on a project, e-OPF, to digitize all of GPO's hard copy official
      personnel folders. Additionally, in the newly formed Chief Management
      Office organization, Human Capital is working with Finance and IT to
      implement an automated decentralized time and attendance policy and
      program, WebTA. This new approach to time and attendance has the
      potential to significantly reduce time and attendance errors and to reduce
      staff hours needed for this purpose. Finally, Human Capital has begun the
      development of a new strategic plan that is in line with GPO's strategic
      plan.

      3. Improved Financial Management: GPO continues to implement Oracle
      Phase II. The activities, issues, and progress of Phase II are reported
      weekly to the DPP and are tracked monthly via GPO's balanced scorecard.
      Once fully implemented, Oracle will provide GPO with near real-time
      business intelligence and production situational awareness.

      4. Continuity of Operations (COOP): GPO is working to ensure it is
      adequately prepared to fulfill its mission essential functions if a natural or
      man-made emergency occurred. GPO is adopting planning requirements
      and critical elements identified in Federal Preparedness Circular 65,
      "Federal Executive Branch Continuity of Operations." GPO established a
      2008 COOP project completion matrix to track milestones and
The Honorable Robert A. Brady - Page 3

      improvements throughout the year, and has established formal periodic
      COOP meetings, participated in multi-agency COOP exercises,
      successfully conducted operations at altemate facilities, conducted key
      and essential employee notification recalls, and developed an Occupant
      Emergency Plan and COOP plan.

      5. Intemal Controls: GPO Financial Management works closely with the
      OIG and KPMG during the course of both regular intemal audits as
      conducted by the OIG and the annual audit as conducted by KPMG. We
      continuously strive to improve our control positions and perform regular
      vulnerability assessments of the controls in the various business process
      cycles (e.g. payments etc).

      6. Security and Intelligent Documents (SID): GPO is proud to be a worId-
      class provider of secure Federal e-credentials. In addition to achieving
      operational excellence GPO is continually pursing advances in security
      and quality assurance. For example, we are integrating an enhanced
      version of Formscan Sentinel to track, reconcile, and de-conflict serialized
      multi-site production as well as establishing an Oracle-on-Demand-based,
      secure archival system to store passport production-related data in a
      geographically displaced location. In terms of quality, GPO has
      developed a roadmap plan that details the potential ISO 9001 certification
      in passport production. To address technology as well as data security
      related to the electronic passport, inventory volume, and storage of blank
      passport books, productive formal committees between GPO and the
      Department of State have been formed. These committees have discussed
      issues such as product change control and engineering changes, inventory
      levels, storage locations, COOP requirements, and quality and customer
      service Issues.

      7. Supporting Congressional Printing: We have taken additional
      measures to ensure the printed versions of legislative documents required
      by the House of Representatives and Senate are delivered on time. These
      measures include monitoring and increasing the staffing levels in pre-
      press, training eight apprentices, establishing a Production Engineering
      Division to support congressional requirements, and working to replace
      our antiquated composition application Microcomp with a commercially
      developed system with better interfaces to the XML authoring tools being
      used by congressional staff. Additionally, GPO's IT staffis in the
      process of upgrading infrastructure, hardware, and software tools to better
      support Congress including new Itanium servers.

      8. Information Technology and Systems (IT&S) Management. GPO
      continues to make good progress on the transformation. We are in the
      process of awarding a contract for technical and maintenance support for
The Honorable Robert A. Brady - Page 4

      enterprise architecture .. This is the second stage of the development of this
      critical activity which will provide the blueprint to be used to help guide
      our transformation. Additionally, GPO's strategic initiatives are
      progressing: Oracle Phase II is scheduled to be enabled by the beginning
      ofFY 09; the first public launch ofFDsys is scheduled for late in calendar
      2008; and the information systems for our SID'business unit have been
      developed and delivered to support operations in Washington, DC, as well
      as GPO's Secure Production Facility in Mississippi. Progress continues to
      be made on utilizing and building our PKI capabilities to support Federal
      agencies. The OIG's independent verification and validation (IV&V)
      effOlis are critical to the transformation activities at GPO. IT&S strongly
      embraces these efforts and has responded to the recommendations that
      come from these efforts. We regularly meet and review progress on the
      Oracle and FDsys IV&V activities on a monthly basis.

      9. Customer Service: Transformation of the GPO customer relationship is
      based on continual feedback from GPO's customers. The results of the
      2007 Customer Satisfaction Survey pointed to significant opportunities for
      transforming customer relations. Consequently, Customer Services
      developed a number of strategies to address the customer requirements.
      Some of those strategies are: provide an organized approach toward
      training clients on GPO products, processes, and printing as demonstrated
      by an increase in open houses, expos, and training seminars; improve
      Customer Services team response times and service behaviors; develop
      closer ties with agencies through specialist rotations in agencies and an
      increase in agency customer visits by team members; increase creative
      services and web design market niche opportunities by developing strong
      areas of expertise:and expand the use of automated systems to create a
      broad central repository of client information.

      10. Acquisition: GPO's Acquisitions group has been instrumental in
      supporting additional contracting needs to add several subject matter
      experts to the program team to fill critical engineering gaps. We look
      forward to a strong working relationship with the OIG and the IV &V
      contractors to help assure that our critical programs are successful.

II.   Audits and Inspections. During the reporting period, the OIG issued 6
      new audit and assessment reports, with recommendations to help improve
      operational performance:

          •   GPO Network Vulnerability Assessment (Assessment Report 08-01,
              November 1,2007). This was an assessment of the GPO enterprise
              network infrastructure along with an evaluation ofthe level of
              security controls that are in place to help protect GPO's IT
The Honorable Robert A. Brady - Page 5

              resources from unauthorized access and compromise. The audit
              team recommended various improvements to reduce system
              vulnerability and management agreed to implement them. A plan
              to modernize GPO's computer network equipment and logical
              design has been produced and will be implemented as a follow on
              to GPO's infrastructure refresh.      .

          •   Report on the Consolidated Financial Statement Audit of the
              Government Printing Office for Fiscal Years (FY) Ending
              September 30,2007 and 2006 (Audit Report 08-02, November 19,
              2007). GPO's annual financial audit was performed by KPMG,
              with the OrG serving as the contracting officer's technical
              representative. KPMG issued an unqualified, or "clean", opinion
              on GPO's financial statements. However, KPMG identified
              certain significant deficiencies in internal controls. While not
              considered to be material weaknesses, management has concurred
              with KPMG's recommendations to address the deficiencies and is
              taking action to correct them.

          •   GPO General Ledger Account 6612, General Expense - Supplies
              (Audit Report 08-03, January 28, 2008). The orG audited the
              appropriateness of transactions with this account, which is used to
              record the purchase of general supplies. The audit revealed
              various weaknesses in controls over supply purchases and
              recommended changes to improve controls and accountability.
              Management concurred in the recommendations and implemented
              changes.

         •    Federal Digital System (FDsys) Independent Verification and
              Validation (IV&V) -First Quarter Observations and
              Recommendations (Assessment Report 08-04, March 28, 2008).
              The OrG is conducting, through a contractor, an independent
              verification and validation of program management, technical and
              testing plans, and other efforts related to the development of
              FDsys, GPO's signatnre digital project. An initial assessment
              showed that the FDsys prime contractor established a strong basis
              for good program management but also identified several
              weaknesses that could lead to risk and cost overrun if left
              uncorrected. In response, GPO assumed greater program control
              over this project and undertook corrective actions to address the
              report's recommendations. The FDsys IV&Vreview will
              continue.

         •    Planning for GPO's Secure Production Facility (Audit Report 08-
              05, March 28, 2008). The orG audited the planning process for
The Honorable Robert A. Brady - Page 6

              the development of GPO's altemate passport production facility,
              called the Secure Production Facility (SPF), at the Stennis Space
              Center in MS. While the report found that the SPF team did a
              commendable job in organizing and carrying out this project (the
              SPF became operational in April 2008, on time and under budget),
              the team did not implement certain project management tasks
              recommended by the Govemment Accountability Office, the
              Office of Management and Budget, and various executive branch
              agencies for projects ofthis kind. In response, management
              developed an SPF Master Project Plan and stated it will use the
              plan along with lessons leamed on future projects. The OIG
              subsequently informed management it considers the
              recommendations closed.

          •   Operating System Security for GPO's Passport Printing and
              Production System (Assessment Report 08-06, March 31, 2008).
              The OIG assessed the security configuration of selected systems
              supporting the production of e-passports to evaluate the level of
              security applied by GPO. The resulting repOli contained 8
              recommendations to strengthen system security and reduce the risk
              of vulnerability. Management is addressing those
              recommendations.

      Other OIG Audits and Inspections. The OIG implemented TeamMate
      audit software to improve the efficiency of its audit process.

      Prior Period Outstanding Recommendations As required by law, this
      section summarizes management's planned action to address remaining
      OIG recommendations still outstanding from previous reporting periods.

          •   GPO Network Vulnerability Assessment (Assessment Report 06-02,
              March 28, 2006). Management concurred with the four
              recommendations issued in this report, and has closed 2 of them.
              Management is working with the OIG to implement steps that will
              close the remaining 2 open recommendations.

          •   GPO Oracle Program Stakeholder Analysis (Assessment Report
              06-03, March 31,2006). The remaining 6 open recommendations
              are being resolved.

          •   Report on Early Oracle Implementation: Independent Verification
              and Validation (Assessment Report 07-01, November 20, 2006).
              Following the establishment of a Quality Group in GPO's IT area,
              the remaining 9 open recommendations are being addressed.
The Honorable Robert A. Brady - Page 7

             •   Report on GPO's Compliance with the Federal Information
                 Security Management Act (FISMA) (Assessment Report 07-09,
                 September 27, 2007). Management is working on the II open
                 recommendations.

             •   Report on Perimeter Security Assessment of a GPO Building
                 (Assessment Report 07-10, September 28,2007). Management is
                 addressing the 3 open recommendations.

III.   Investigations. During the reporting period, the OIG performed
       investigative work on workers' compensation fraud, procurement fraud,
       employee misconduct, and miscellaneous matters. This work resulted in
       referral of 5 investigative matters (2 civil, 3 criminal) to the Justice
       Department for prosecution, and 3 matters were referred to management
       for action. These activities demonstrated the value of OIG investigators in
       protecting GPO from waste, fraud, and abuse.

        Regarding the OIG's Management Implications Report (MIR) concerning
        the shipping and storage procedures of one of the security materials used
        in passport production, management changed security procedures to
        address the report's recommendations.

IV.    Statistical Tables

       Statistical tables as required by law are enclosed.

If you need additional information with respect to this report, please do not
hesitate to contact Mr. Andrew M. Sherman, Director of Congressional Relations,
on 202-512-1991, or bye-mail at asherman@gpo.gov.

Sincerely,




Public Printer

Enclosures
The Honorable Robert A. Brady - Page 8

cc:   The Honorable Diane Feinstein, Vice Chairman
      The Honorable Robert Bennett, Ranking Minority Member
      The Honorable Michael E. Capuano
      The Honorable Susan A. Davis
      The Honorable Vernon J. Ehlers
      The Honorable Kevin McCarthy
      The Honorable Daniel K. Inouye
      The Honorable Patty Murray
      The Honorable Saxby Chambliss
ENCLOSURE I

                   STATISTICAL TABLE FOR SECTION 5(b)(2) - DISALLOWED COSTS

                                                         Number of       Disallowed Costs
                                                        Audit Reports Questioned Unsupported
A.      Audit reports for which final action 1 had
        not been taken by the commencement
        of the reporting period                                              347,247        240,687

        Audit reports issued during the period
        with potential disallowed costs                        0             0              0

        Total Costs                                                          347,247       240,687

B.      Audit reports on which management
        decisions' were made during the
        reporting period

        ( i.)    Dollar value of disallowed costs             o            o               o
        (ii.)    Dollar value of allowed costs                o            o               o
c.      Audit reports for which final action
        was taken during the period, including:
        ( i.)   Dollar value of disallowed costs               o           o               o
                that were recovered by management
                through offsets against other
                contractor invoices or nonpayment

        (ii. )   Dollar value of disallowed costs               o          o               o
                 that were written off by management

D.     Audit reports for which no final                        o           o               o
       action has been taken by the end
       of the reporting period




1 As defined by law, the term "final action" means the completion of all actions that the management of
an establishment has concluded, in its management decision, are necessary with respect to the findings
and recommendations included in an audit report, and in the event that the management concludes no
action is necessary, final action occurs when a management decision has been made.
2 As defined by law, the term "management decision" means the evaluation by management of the

findings and recommendations included in an audit report and the issuance of a final decision by
management concerning its response to such findings and recommendations, including actions concluded
to be necessary.
ENCLOSURE II


       STATISTICAL TABLE FOR SECTION 5{b){3) - FUNDS PUT TO BETTER USE
                   AGREED TO IN A MANAGEMENT DECISION

                                                          Number of       Dollar Value of
                                                          Audit ReQorts   Recommendations
A.        Audit reports for which final action3 had
          not been taken by the commencement of
          the reporting period                                  0                    0

          Audit reports for which final action had
          not been taken for new reports issued
          during the reporting period with potential
          funds put to better use
                                                                0                    0
B.        Audit reports on which management
          decisions4 were made during the reporting
          period                                                0                    0

C.        Audit reports for which final action was
          taken during the reporting, including:

          ( i.)    Dollar value of recommendations
                   that were actually completed                 0                    0

          (ii. )   Dollar value of recommendations
                   that management has subsequently
                   concluded should not or could not
                   be implemented or completed                  0                    0

D.        Audit reports for which no final action has
          been taken by the end of the reporting period         0                    0




3   Same definition as in Enclosure L
4   Same definition as in Enclosure L
